IN THE SUPREME COURT OF THE UNITED STATES
STEVEN BRUCE,
Petitioner,
v.
ALEX AZAR II,
Secretary of the U.S. Dept, of Health and Human Services, Blue Shield Insurance
Co., and Envison Insurance Co.,
Respondents.
CERTIFICATE OF SERVICE
I, April Banerjee, Executive Director of People With Disabilities Foundation, hereby
certify that on this 23rd day of November 2020, I caused the Petition for Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit of Steven
Bruce to be served electronically on the following counsel:
Joanna L. Allen
Manatt Phelps & Phillips, LLP
ilallen@manatt.com
Joanna Sobol McCallum
Manatt Phelps & Phillips, LLP
imccallum@manatt.com
Kimberly Anne Robinson
US Attorney’s Office
Kimberlv.robinson3@usdoi.gov

representing

Blue Shield of California
50 Beale St
San Francisco, CA 94105

representing

Blue Shield of California
50 Beale St
San Francisco, CA 94105

representing

Alex M. Azar, II
(Defendant)

and by U.S. mail to:
Elizabeth M. Treckler
Baker & Hostetler LLP
11601 Wilshire Blvd., Ste. 1400
Los Angeles, CA 90025

representing

Envision Insurance Co
2181 Aurora Road
Ste. 201
Twinsburg, OH 44087

I further certify that all parties required to be served have been served.

V.

^
April Bane®jee
People With Disabilities Foundation
507 Polk Street, Suite 430
San Francisco, CA 94102
415-931-3070
abanerjee@pwdf.org

